       DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                  Office of Inspector General


                                                                                Washington, D.C.	 20201




                                       APR 2 1 2009

TO:	           Charlene Frizzera
               Acting Administrator .
               Centers for Medicare &Me .caid Services




          ~
                    /£~
FROM:·          seph E. Vengrin
           .   Deputy Inspector General for Audit Services


SUBJECT:	      Review of High-Dollar Payments for Services Processed by Wisconsin Physicians
               Service for the Period January 1, 2004, Through December 31, 2006
               (A-05-08-00022)


Attached is an advance copy of our final report on high-dollar payments for services processed
by Wisconsin Physicians Service (WPS) for the period January 1,2004, through December31,
2006. We will issue this report to WPS within 5 business days. This audit was part of a
nationwide review of payments for Medicare Part B services of $1 0,000 or more (high-dollar
payments).

Our objective was to determine whether high-dollar Medicare payments that WPS made to
Part B providers for services provided during calendar years (CY) 2004 through 2006 were
appropriate.

Of the 100 sampled high-dollar payments that WPS made to Part B providers for services
provided during CYs 2004 through 2006, 77 were appropriate. The 23 remaining payments
included net overpayments totaling $117,778, of which $95,736 for 20 payments had not been
refunded at the start of our audit.

WPS made the overpayments because its staff inaccurately calculated or entered the payment
rates for manually processed claims or because providers reported inaccurate units of service. In
addition, the Medicare claim-processing systems did not have sufficient computer edits or
manual pricing controls in place during CYs 2004 through 2006 to detect and prevent payments
for these types of ertoneous claims.

Based on the sample results for our 3-year audit period, we estimated that WPS made 402
overpayments totaling $2,057,585 to providers in Illinois, Michigan, Minnesota, and Wisconsin
for Part B services.
Page 2 – Charlene Frizzera


We recommend that WPS:

    •   recover the $95,736 in identified overpayments,

    •   review the 1,647 remaining high-dollar payments with potential overpayments estimated
        at $1,939,807 ($2,057,585 less $117,778 overpaid) and work with the providers that
        claimed these services to recover any overpayments,

    •   consider reviewing high-dollar payments made for services provided after CY 2006 and
        recover any additional overpayments, and

    •   improve internal controls related to manual claim processing.

In written comments on our draft report, WPS described corrective actions that it had taken or
planned to take to implement our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2618
or through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number
A-05-08-00022.


Attachment
                         DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                      OFFICE OF AUDIT SERVICES                      REGION V
                                     233 NORTH-MICHIGAN AVENUE                        OFFICl!:OF
                                       CHICAGO, ILLINOIS 60601                   INSPECTOR GENERAL




                                       APR 2 4 2009

Report Number: A-05-08-00022

Mr. Guy Ringle
Senior Vice-President, Medicare
Wisconsin Physicians Service Insurance Corporation
P.O. Box 1787
Madison, Wisconsin 53701

Dear Mr. Ringle:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of High-Dollar Payments for Services Processed by
Wisconsin Physicians Service for the Period January 1,2004, Through December 31, 2006." We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response, should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.c. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject tbexemptions in
the Act. Accordingly, this report will be posted on,the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Sheri Fulcher, Audit Manager, at (312) 353-1823 or through e-mail at Sheri.Fulcher@oig.hhs.gov.
Please refer to report number 1\-05-08-00022 in all correspondence.

                                              Sincerely,



                                              Marc L. Gustafson
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Guy Ringle


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




         REVIEW OF
 HIGH-DOLLAR PAYMENTS FOR
   SERVICES PROCESSED BY
    WISCONSIN PHYSICIANS
   SERVICE FOR THE PERIOD
 JANUARY 1, 2004, THROUGH
     DECEMBER 31, 2006




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-05-08-00022
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with carriers to process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers).

CMS guidance requires carriers to pay for physician services based on a fee schedule and to pay
for drugs based on the CMS published average sales price. CMS guidance also requires
providers to bill accurately and to report units of service as the number of times that a service or
procedure was performed. Carriers use the Medicare Multi-Carrier Claims System and CMS’s
Common Working File to process Part B claims. These systems can detect certain improper
payments during prepayment validation.

Wisconsin Physicians Service (WPS) is the Medicare Part B carrier for approximately 100,000
providers in Illinois, Michigan, Minnesota, and Wisconsin. During calendar years (CY) 2004
through 2006, WPS processed more than 274 million Part B claims, 1,747 of which resulted in
payments of $10,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that WPS made to
Part B providers for services provided during CYs 2004 through 2006 were appropriate.

SUMMARY OF FINDING

Of the 100 sampled high-dollar payments that WPS made to Part B providers for services
provided during CYs 2004 through 2006, 77 were appropriate. The 23 remaining payments
included net overpayments totaling $117,778, of which $95,736 for 20 payments had not been
refunded at the start of our audit.

WPS made the overpayments because its staff inaccurately calculated or entered the payment
rates for manually processed claims or because providers reported inaccurate units of service. In
addition, the Medicare claim-processing systems did not have sufficient computer edits or
manual pricing controls in place during CYs 2004 through 2006 to detect and prevent payments
for these types of erroneous claims.

Based on the sample results for our 3-year audit period, we estimated that WPS made 402
overpayments totaling $2,057,585 to providers in Illinois, Michigan, Minnesota, and Wisconsin
for Part B services.




                                                  i
RECOMMENDATIONS

We recommend that WPS:

    •   recover the $95,736 in identified overpayments,

    •   review the 1,647 remaining high-dollar payments with potential overpayments estimated
        at $1,939,807 ($2,057,585 less $117,778 overpaid) and work with the providers that
        claimed these services to recover any overpayments,

    •   consider reviewing high-dollar payments made for services provided after CY 2006 and
        recover any additional overpayments, and

    •   improve internal controls related to manual claim processing.

WISCONSIN PHYSICIANS SERVICE COMMENTS

In written comments on our draft report, WPS described corrective actions that it had taken or
planned to take to implement our recommendations. WPS’s comments are included in their
entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicare Part B Carriers .........................................................................................1
              Wisconsin Physicians Service..................................................................................1
              Medically Unlikely Edits .........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope........................................................................................................................2
               Methodology ............................................................................................................2

FINDING AND RECOMMENDATIONS...................................................................................3

          MEDICARE REQUIREMENTS.........................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...........................................................4

          CAUSES OF OVERPAYMENTS.......................................................................................4

          RECOMMENDATIONS.....................................................................................................5

          WISCONSIN PHYSICIANS SERVICE COMMENTS .....................................................5

APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – WISCONSIN PHYSICIANS SERVICE COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Carriers

Prior to October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers to
process and pay Medicare Part B claims submitted by physicians and medical suppliers
(providers). 1 Carriers also review provider records to ensure proper payment and assist in
applying safeguards against unnecessary utilization of services. To process providers’ claims,
carriers use the Medicare Multi-Carrier Claims System and CMS’s Common Working File.
These systems can detect certain improper payments during prepayment validation.

CMS guidance requires carriers to pay for physician services based on a fee schedule and to pay
for certain drugs based on the CMS published average sales price. CMS guidance also requires
providers to bill accurately and to report units of service as the number of times that a service or
procedure was performed.

During calendar years (CY) 2004 through 2006, providers nationwide submitted approximately
2.4 billion claims to carriers. Of these, 31,576 claims resulted in payments of $10,000 or more
(high-dollar payments). We consider such claims to be at high risk for overpayment.

Wisconsin Physicians Service

Wisconsin Physicians Service (WPS) is the Medicare Part B carrier for approximately 100,000
providers in Illinois, Michigan, Minnesota, and Wisconsin. During CYs 2004 through 2006,
WPS processed more than 274 million Part B claims, 1,747 of which resulted in high-dollar
payments.

Medically Unlikely Edits

In January 2007, after our audit period, CMS required carriers to implement units-of-service edits
referred to as “medically unlikely edits.” These edits were designed to detect and deny unlikely
Medicare claims on a prepayment basis. According to the “Medicare Program Integrity Manual,”
Pub. No. 100-08, Transmittal 178, Change Request 5402 (December 8, 2006), medically unlikely
edits test claim lines for the same beneficiary, Healthcare Common Procedure Coding System
code, date of service, and billing provider against a specified number of units of service. Carriers
must deny the entire claim line when the units of service billed exceed the specified number. In



1
 The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
section 1842(a) of the Act to require that Medicare administrative contractors replace carriers and fiscal
intermediaries by October 2011.


                                                      1
2007, WPS instituted medically unlikely edits and targeted certain high-dollar medical procedures
for review.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that WPS made to
Part B providers for services provided during CYs 2004 through 2006 were appropriate.

Scope

We reviewed a statistical sample of 100 payments totaling $2,051,469 from the 1,747 high-dollar
payments totaling $35,419,979 that WPS made for services provided during CYs 2004 through
2006.

We limited our review of WPS’s internal controls to those applicable to the 100 sampled claims
because our objective did not require an understanding of all internal controls over the submission
and processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We performed our fieldwork from October 2007 through October 2008 by coordinating with
WPS in Madison, Wisconsin, and by contacting the providers that received the sampled high-
dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify Medicare Part B claims with high-
        dollar payments;

   •    identified the computer system edits and manual claim-processing controls that WPS had
        in place to prevent overpayments for Part B high-dollar medical procedures;

   •    selected a simple random sample of 100 payments totaling $2,051,469 from the sampling
        frame of 1,747 high-dollar payments that WPS processed for services provided during
        CYs 2004 through 2006 (Appendix A);

   •    reviewed available Common Working File claim histories for the 100 sampled payments
        and determined whether the claims had been canceled and superseded by revised claims
        and whether payments remained outstanding at the time of our fieldwork;




                                                 2
   •   contacted providers to determine whether high-dollar claims were billed correctly and, if
       not, why the claims were incorrect;

   •   coordinated our review, including the calculation of any overpayments, with WPS
       officials; and

   •   used our sample results to estimate the number and dollar amount of the overpayments in
       the sampling frame (Appendix B).

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

Of the 100 sampled high-dollar payments that WPS paid to Part B providers for services provided
during CYs 2004 through 2006, 77 were appropriate. The 23 remaining payments included net
overpayments totaling $117,778, of which $95,736 for 20 payments had not been refunded at the
start of our audit.

WPS made the overpayments because its staff inaccurately calculated or entered the payment
rates for manually processed claims or because providers reported inaccurate units of service. In
addition, the Medicare claim-processing systems did not have sufficient computer edits or manual
processing controls in place during CYs 2004 through 2006 to detect and prevent payments for
these types of erroneous claims.

Based on the sample results for our 3-year audit period, we estimated that WPS made 402
overpayments totaling $2,057,585 to providers in Illinois, Michigan, Minnesota, and Wisconsin
for Part B services.

MEDICARE REQUIREMENTS

The CMS “Carriers Manual,” Pub. No. 14, part 2, section 5261.1, requires that carriers accurately
process claims in accordance with Medicare laws, regulations, and instructions. Section 5261.3 of
the manual requires carriers to effectively and continually analyze “data that identifies
aberrancies, emerging trends and areas of potential abuse, overutilization or inappropriate care,
and . . . areas where the trust fund is most at risk, i.e., highest volume and/or highest dollar
codes.”

The “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 12, section 20, requires
carriers to pay for physician services based on a fee schedule. In addition, chapter 17, section 20,
requires carriers to pay for certain drugs based on the CMS published average sales prices.




                                                 3
INAPPROPRIATE HIGH-DOLLAR PAYMENTS

WPS made 23 net overpayments totaling $117,778, of which $95,736 for 20 payments had not
been refunded at the start of our audit. Providers received these overpayments because WPS staff
applied incorrect payment rates when manually processing claims 2 and because providers
reported inaccurate units of service. The following examples illustrate the high-dollar
overpayments.

    •   WPS applied an incorrect payment rate for 12 claims for hemophilia drugs and paid
        providers $326,078 when it should have paid $264,613, resulting in overpayments totaling
        $61,465.

    •   A provider billed 70 units of a chemotherapy drug on its claim but delivered only 8 units.
        As a result, WPS paid the provider $16,865 when it should have paid $1,928, an
        overpayment of $14,937.

    •   A provider billed six units of a medication on its claim but delivered only one unit. As a
        result, WPS paid the provider $12,036 when it should have paid $2,006, an overpayment
        of $10,030.

    •   WPS applied an incorrect payment rate for one claim for a beneficiary’s cochlear implant
        and paid the provider $21,500 when the Medicare allowed fee was $12,635, an
        overpayment of $8,865.

Based on the sample results for our 3-year audit period, we estimated that WPS made 402
overpayments totaling $2,057,585 to providers in Illinois, Michigan, Minnesota, and Wisconsin
for Part B services.

CAUSES OF OVERPAYMENTS

WPS attributed the overpayments to staff errors in applying fees and manually calculating
payments. WPS also indicated that its postpayment reviews did not include many of the high-
dollar medical procedures in our sample. Providers attributed the incorrect claims to clerical
errors made by their billing staff.

In addition, during CYs 2004 through 2006, the Medicare Multi-Carrier Claims System and the
CMS Common Working File did not have sufficient prepayment controls to detect and prevent
inappropriate payments resulting from claims for excessive units of service. Instead, CMS relied
on providers to notify carriers of overpayments and on beneficiaries to review their “Medicare
Summary Notice” and disclose any provider overpayments. 3


2
 WPS manually processed many drug claims because its claim-processing system lacked the ability to process units
of service in excess of 999.
3
 The carrier sends a “Medicare Summary Notice” to the beneficiary after the provider files a claim for Part B
service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the amount
due from the beneficiary.


                                                         4
RECOMMENDATIONS

We recommend that WPS:

    •   recover the $95,736 in identified overpayments,

    •   review the 1,647 remaining high-dollar payments with potential overpayments estimated
        at $1,939,807 ($2,057,585 less $117,778 overpaid) and work with the providers that
        claimed these services to recover any overpayments,

    •   consider reviewing high-dollar payments made for services provided after CY 2006 and
        recover any additional overpayments, and

    •   improve internal controls related to manual claim processing.

WISCONSIN PHYSICIANS SERVICE COMMENTS

In written comments on our draft report, WPS described corrective actions that it had taken or
planned to take to implement our recommendations. WPS’s comments are included in their
entirety as Appendix C.




                                                5
APPENDIXES
                                                                               APPENDIX A

                       SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population included Wisconsin Physicians Service (WPS) Part B paid claims with payments
of $10,000 or more per claim (high-dollar payments) for services provided in calendar years
(CY) 2004 through 2006.

SAMPLING FRAME

The sampling frame contained 1,747 high-dollar payments with dates of service in CYs 2004
through 2006. WPS paid Part B providers $35,419,979 for the 1,747 claims. We extracted the
paid claim data from the Centers for Medicare & Medicaid Services National Claims History
File.

SAMPLE UNIT

The sample unit was a high-dollar payment made to a provider for services rendered to a
Medicare beneficiary during the audit period. One claim may have contained multiple lines of
service.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

From the 1,747 high-dollar payments, we selected a sample size of 100 with payments totaling
$2,051,469.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the payments in our sampling frame. After generating 100 random
numbers, we selected the corresponding frame items to create a list of 100 sampled items.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
calculate our estimates. We estimated the total number and dollar amount of the overpayments.
                                                                             APPENDIX B


                        SAMPLE RESULTS AND ESTIMATES

                                     Sample Results

               Value of                        Value of
 Sampling      Sampling                        Sample          No. of      Value of
Frame Size      Frame        Sample Size      Payments      Overpayments Overpayments
   1,747      $35,419,979       100           $2,051,469         23        $117,778

                                 Estimated Overpayments
                  (Limits calculated for a 90-percent confidence interval)

                                  Estimated Number of               Estimated Value of
                                     Overpayments                     Overpayments
      Point estimate                      402                           $2,057,585
      Lower limit                         288                           $1,150,772
      Upper limit                         537                           $2,964,398
